      Department of Homeland Security





      Identification, Reutilization, and Disposal of Excess 

     Personal Property by the United States Coast Guard 





OIG-13-19                                        December 2012

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                               Washington, DC 20528 / www.oig.dhs.gov


                                        DEC 21 2012


MEMORANDUM FOR: 	             Rear Admiral Stephen P. Metruck
                              Assistant Commandant for Resources and
                              Chief Financial Officer
                              United States Coast Guard

FROM:                         Anne L. Richards
                              Assistant Inspector General for Audits

SUBJECT: 	                    Identification, Reutilization, and Disposal of Excess
                              Personal Property by the United States Coast Guard

Attached for your action is our final report, Identification, Reutilization, and Disposal of
Excess Personal Property by the United States Coast Guard. We incorporated the formal
comments from the Assistant Commandant for Resources and Chief Financial Officer in
the final report.

The report contains seven recommendations aimed at improving personal property
management in the United States Coast Guard. Your office concurred with six of the
recommendations and partially concurred with the seventh recommendation. As
prescribed by the Department of Homeland Security Directive 077-01, Follow-Up and
Resolution for the Office of Inspector General Report Recommendations, within 90 days
of the date of this memorandum, please provide our office with a written response that
includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target
completion date for each recommendation. Also, please include responsible parties and
any other supporting documentation necessary to inform us about the current status of
the recommendation. Until your response is received and evaluated, the
recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II,
Deputy Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1

   Background ........................................................................................................................ 2

   Results of Audit ................................................................................................................... 4

              USCG’s Personal Property Reutilization and Disposal Processes ........................... 4 

              Recommendations ............................................................................................... 11 

              Management Comments and OIG Analysis ......................................................... 12 

              

              Screening and Disposal of Excess Personal Property ........................................... 14 

              

              Personal Property Management Training............................................................. 16 

              Recommendation ................................................................................................. 18 

              Management Comments and OIG Analysis ......................................................... 18 


              Other Matter: Accountability of Newly Purchased Computers........................... 19
              Recommendation ................................................................................................. 19
              Management Comments and OIG Analysis ......................................................... 20

   Appendixes
    

              Appendix A:          Objective, Scope, and Methodology ............................................. 22 

              Appendix B:          Management Comments to the Draft Report ............................... 25 

              Appendix C:          Personal Property Disposal Process............................................... 28 

              Appendix D:          Major Contributors to This Report ................................................ 29 

              Appendix E:          Report Distribution ........................................................................ 30 


   Abbreviations
              APO                   Accountable Property Officer
              CFR                   Code of Federal Regulations
              CG-84                 Office of Financial Policy and Systems (United States Coast Guard)
              CG-844                Property Accountability Division (United States Coast Guard)
              DHS                   Department of Homeland Security
              DOD                   Department of Defense
              ESD                   Electronic Support Detachment
              ESU                   Electronic Support Unit
              FAM                   Oracle Fixed Asset Module

www.oig.dhs.gov                                                                                                                 OIG-13-19
                     OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


           FY     fiscal year
           GAO    U. S. Government Accountability Office
           GSA    U.S. General Services Administration
           OIG    Office of Inspector General
           PPMM   Personal Property Management Manual
           SFLC   Surface Forces Logistics Center
           USCG   United States Coast Guard




www.oig.dhs.gov                                            OIG-13-19
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   According to the Department of Homeland Security, in fiscal year 2011, the United States
   Coast Guard (USCG) was responsible for 15 percent of the Department’s personal
   property and, between fiscal years 2008 and 2010, disposed of approximately $3.3 billion
   worth of such property. Reutilizing excess personal property maximizes the return on
   taxpayers’ dollars and minimizes expenditures for new procurements. Federal agencies
   are required to reutilize excess personal property unless doing so causes serious hardship,
   is impractical, or impairs operations. We conducted an audit to determine if the USCG’s
   policies, procedures, and processes ensure the proper identification and classification of
   excess personal property, as well as the proper reutilization and disposal of this property.

   The USCG did not have adequate policies, procedures, and processes to identify and
   screen, reutilize, and dispose of excess personal property properly. It did not consistently
   screen excess personal property for reutilization and did not follow existing policies for
   disposal, which in some cases were inadequate or contradictory. As a result, the USCG
   could not ensure that personal property was efficiently reutilized or properly disposed of
   to prevent unauthorized use or theft.

   We made seven recommendations aimed at improving the USCG’s processes for personal
   property management and oversight of excess property identification, screening,
   reutilization, and disposal. The USCG concurred with six of the recommendations. The
   USCG partially concurred with our recommendation to develop and implement policies
   and procedures to account for newly purchased computers that comply with USCG
   personal property management policies for entry of personal property into the Oracle
   Fixed Asset Module within 30 calendar days of receipt from the vendor.




www.oig.dhs.gov                                1                                        OIG-13-19
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Background
   According to the Department of Homeland Security (DHS), in fiscal year (FY) 2011, the
   USCG was responsible for 15 percent of DHS’ personal property and, between FY 2008 and
   FY 2010, disposed of approximately $3.3 billion worth of such property.1 The Code of
   Federal Regulations (CFR) defines personal property as any Federal property except real
   property (interest in land, including improvements, structures, and fixtures on it), certain
   naval vessels, and Federal records.2 The U.S. General Services Administration (GSA)
   defines excess personal property as property that is no longer required for an agency’s
   needs. Federal agencies are required to reutilize excess personal property unless doing so
   causes serious hardship, is impractical, or impairs operations, because reutilization
   maximizes the return on taxpayers’ dollars and minimizes expenditures for new
   procurements.

   Although this audit focused on reutilization and disposal, these actions are an integral part
   of the overall property management process. The USCG’s property management program
   encompasses many aspects of an asset’s life cycle management. The decision to dispose
   of an asset or reutilize it for other purposes is the final step in an asset’s life cycle. The
   USCG disposes of excess personal property through two channels—GSA and the
   Department of Defense (DOD) Defense Logistics Agency Disposition Services. At the
   USCG, the Property Accountability Division (CG-844) is responsible for the overall
   management of personal property, including managing and overseeing the identification,
   screening, reutilization, and disposal of excess personal property.

   Personal property identified as excess to the needs of a particular USCG unit must be
   screened for reutilization prior to disposal. Personal property not reutilized by the USCG
   or DHS may be transferred to another Federal Government agency; donated to certain
   nonprofit institutions or State or local governments; or sold through GSA. The USCG may
   also transfer personal property to DOD’s Defense Logistics Agency Disposition Services for
   disposal or sale, or may locally abandon or destroy the property.

   The USCG uses the Oracle Fixed Asset Module (FAM) electronic system to account for
   most of its personal property.3 USCG policies require that as mandatory accountable
   personal property is acquired, it be entered into FAM and classified as either capitalized
   or noncapitalized.4 Capitalized property has an acquisition cost of $25,000 if acquired

   1
     Total is inclusive only of personal property captured in Oracle Fixed Asset Module (FAM).

   2
     41 CFR § 102-36.40. 

   3
     Other systems used by the USCG to account for personal property are the Naval and Electronics Supply 

   Support System, the Aviation Logistics Management Information System, and the Fleet Logistics System. 

   4
     According to the USCG Personal Property Management Manual, mandatory accountable personal property 

   is more than $2,500 in historic cost, sensitive, or highly pilferable. USCG units may use FAM to account for 



www.oig.dhs.gov                                        2                                               OIG-13-19
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   prior to FY 2004 or $50,000 if acquired in FY 2004 or later. Noncapitalized mandatory
   accountable personal property generally has an acquisition cost between $2,500 and
   these capitalized values. Units must ensure that updates to FAM occur within 30 days of
   any changes, including disposals, made to the unit’s property records. The USCG Finance
   Center is responsible for removing capitalized personal property from FAM based on
   documentation provided by the unit.

   The USCG’s Personal Property Management Manual (PPMM) contains policies and
   procedures to process and dispose of excess personal property. The USCG issued Version
   5A of the PPMM in July 1998 and provided one update to this version of the manual in
   April 1999. The next version, 5B, was issued in August 2010. During our audit, in March
   2012, the USCG issued PPMM Version 5C.

   Commanding Officers are accountable for the custody, care, preservation, and proper use
   of all unit property.5 Unit personnel are assigned to one of three personal property
   management positions—Accountable Property Officer (APO), Personal Property
   Administrator, or Property Custodian. Commanding Officers of units with an Operating
   Facility number designate APOs, ensure that FAM is updated within 30 days of any
   changes to unit property records, and certify and submit the annual capitalized property
   report. APOs administer and maintain FAM to ensure unit property accountability,
   maintain current property records and documentation, and identify and report excess
   property.

   APOs designate Personal Property Administrators who enter and change the status of
   personal property records in FAM, but do not have the authority to approve disposal of
   personal property. APOs also designate and train Property Custodians in processes and
   procedures for personal property management. Property Custodians maintain current
   custodial records for all personal property in their assigned areas, initiate property
   accountability and custody-related documents, identify and report excess property to the
   APO, and assist with physical inventories.




   nonmandatory accountable personal property, but its use is not required. This audit did not include a 

   review of nonmandatory accountable personal property.

   5
     Commanding Officers also include personnel designated as Officers-in-Charge or Unit-Level Supervisors. 



www.oig.dhs.gov                                        3                                              OIG-13-19
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   Results of Audit
   The USCG did not have adequate policies, procedures, and processes to identify and
   screen, reutilize, and dispose of excess personal property properly. It did not consistently
   screen excess personal property for reutilization and did not follow existing policies for
   disposal, which in some cases were inadequate or contradictory. As a result, the USCG
   could not ensure that personal property was efficiently reutilized or properly disposed of
   to prevent unauthorized use or theft.

              USCG’s Personal Property Reutilization and Disposal Processes

              CG-844 did not develop and implement adequate policies, procedures, and
              processes for reutilization and disposal of excess personal property. The USCG
              needs to clarify CG-844’s oversight authority for personal property management,
              and review and update all policies and procedures for asset reutilization and
              disposal. To ensure that excess personal property is effectively managed, CG-844
              should:

                  •	   Enhance its monitoring and evaluation of USCG units;
                  •	   Follow its existing guidance for the demilitarization of certain property;
                  •	   Improve its oversight of classified personal property disposals;
                  •	   Strengthen its organizational structure; and
                  •	   Improve the accuracy and completeness of the USCG’s primary personal
                       property data system of record.

              According to the U.S. Government Accountability Office (GAO), internal control is a
              major part of managing an organization and comprises the plans, methods, and
              procedures used to meet missions, goals, and objectives.6 The USCG’s PPMM
              states, “Responsible property management is the effective control of the
              acquisition, use, safeguarding, and disposal of any type of property.”7 According
              to GAO, internal control is the first line of defense to safeguard assets, and prevent
              and detect errors and fraud.

              CG-844’s Authority and Oversight of Personal Property Management

              CG-844 did not adequately define, communicate, or exercise its authority over
              personal property management to ensure proper identification, screening,
              reutilization, and disposal of excess personal property. Although CG-844 was

   6
       Standards for Internal Control in the Federal Government, GAO, GAO/AMID 00-21.3.1, November 1999.
   7
        U.S. Coast Guard Personal Property Management Manual, COMDTINST M4500.5B, August 2010, p 1-1.


www.oig.dhs.gov                                        4                                      	     OIG-13-19
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           responsible for overall management of all USCG personal property, the office had
           limited involvement in management of its processes, as well as limited oversight of
           some USCG programs’ personal property.

           Property management activities spanned multiple USCG programs, divisions, and
           field units. USCG programs generally established policies and oversaw the day-to­
           day management of their personal property. Programs also used these policies to
           establish criteria for identifying and screening excess personal property and for
           disposal processes and requirements. For example, the Office of Boat Forces
           established policy for and managed personal protective equipment (except
           aviation-related gear). Several other USCG programs also had personal protective
           equipment and used varying processes to manage it. Based on interviews
           conducted during our audit, we determined that some units were not tracking or
           monitoring personal protective equipment, which we brought to the attention of
           CG-844 officials. Although neither the PPMM nor the Office of Boat Forces’ Rescue
           and Survival Systems Manual had disposal guidance for this equipment, the Office
           of Boat Forces reported plans to include disposal and tracking guidance in an
           upcoming update of its manual. CG-844 also had limited involvement in the
           management of buoys and navigational aids managed by the Ocean Engineering
           Division. CG-844 officials acknowledged that they did not monitor the
           management of these types of personal property.

           USCG officials attribute some of these difficulties to CG-844’s insufficient authority
           to enforce program areas’ compliance with property management requirements.
           CG-844 also did not interact with certain programs to ensure compliance with
           property management requirements.

           CG-844’s limited management of personal property posed potential risks of waste,
           fraud, and abuse and may have contributed to the theft of Government equipment.
           A USCG civilian employee, arrested in 2011, stole at least 795 pieces of
           Government property, including computers, monitors, life rafts, and navigational
           equipment. The USCG attributed the theft to poor disposal monitoring. In
           response to the arrest, the USCG reported that improvements were made in these
           areas. However, due to CG-844’s limited authority and lack of management
           oversight over reutilization and disposal of personal property, the USCG continues
           to be at risk of improper disposal and theft. For example, CG-844 did not oversee
           the management, reutilization, and disposal of classified personal property (such
           as computers and servers). Limited testing showed that this property was not
           consistently entered into a formal system of record as required by DHS and the
           USCG; and therefore was at increased risk of improper disposal or theft.




www.oig.dhs.gov                                 5                                        OIG-13-19
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           CG-844 also did not ensure that required USCG-wide screening of excess personal
           property for reutilization was conducted. The USCG delegated the authority to a
           unit that was not part of CG-844 to manage USCG-wide screening of excess
           personal property for reutilization, but for more than 3 years, this unit did not
           appropriately staff or monitor the screening website. USCG officials said that CG­
           844 did not require documentation or other evidence of the units’ mandatory
           screening of excess personal property prior to its disposal, nor did it have a
           procedure to monitor and enforce screening for reutilization or disposal.

           To identify, screen, reutilize, and dispose of excess personal property effectively
           and to ensure compliance with policies and procedures, CG-844 should have used
           its authority to oversee all phases of personal property management. CG-844
           could have also improved its overall property management by working with all
           USCG programs to establish guidance and authority for program personal property
           not directly under its control.

           The USCG’s Personal Property Management Manual

           The USCG’s PPMM (Version 5B) did not include all aspects of personal property
           management, had duplicate guidance, was inconsistent with other USCG policy
           manuals, and contained inaccuracies. The PPMM did not include criteria for
           identifying excess personal property or information on identifying and disposing of
           certain categories of personal property such as classified property, navigational
           aids, and personal protective equipment. A significant amount of content was
           duplicative. For example, although chapter 8 covered personal property disposal
           procedures, these procedures were repeated throughout the manual for certain
           types of property. Some information in the PPMM was inconsistent with that of
           other USCG program policy manuals. Disposal procedures for excess or expired
           controlled substances were different from the procedures issued by the USCG
           program office with oversight responsibility. The PPMM also included a number of
           errors in referenced enclosures. As a result, USCG personnel could not rely on the
           PPMM to comply with personal property management requirements to identify,
           screen, reutilize, and dispose of excess personal property.

           CG-844 Oversight and Involvement in Units’ Personal Property Reutilization and
           Disposal Management

           CG-844 provided limited oversight of certain personal property management tasks,
           including reutilization and disposal, at USCG units and did not ensure that the units
           properly performed these tasks. For example, CG-844 did not ensure that units
           provided accurate USCG and DHS-required property-related reports. We reviewed
           the USCG’s required Annual Report of Lost, Damaged, or Stolen Property to DHS.


www.oig.dhs.gov                                 6                                       OIG-13-19
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


           To compile this report, CG-844 relies on individual units to report lost, damaged,
           and destroyed personal property. In FY 2008 and FY 2009, the USCG reported 765
           personal property items as lost, damaged, or destroyed. For the same period,
           FAM disposal data showed 8,146 “lost” items, which the USCG did not include in
           the report to DHS. Other than an incomplete FY 2010 spreadsheet, CG-844 could
           not provide the methodology used to ensure units’ compliance with year-end
           personal property reporting.

           CG-844 did not ensure that units performed required periodic evaluations of their
           property management performance and effectiveness. Although CG-844 was
           responsible for USCG-wide personal property program management, it ceased
           conducting property management program visits at units. USCG officials reported
           that these visits were replaced by other USCG inspection efforts, but CG-844 did
           not coordinate with these inspection efforts nor did it use the inspection results to
           improve units’ personal property management, including reutilization and
           disposal.

           Without regular evaluations, CG-844 had no basis to assess USCG personal
           property management, including reutilization and disposal efforts. As a result, the
           USCG could not identify best practices to implement or identify deficient program
           areas. By coordinating evaluations and inspections and leveraging their results,
           the USCG would have been in a better position to improve key aspects of personal
           property management.

           Personal Property Demilitarization

           The USCG did not implement processes to ensure that all personal property
           requiring demilitarization or commerce trade controls was disposed of in
           accordance with appropriate laws. As a result, there was a risk that individuals,
           entities, and countries with interests adverse to the United States could illegally
           acquire such property.

           Federal agencies must dispose of excess personal property included on The United
           States Munitions List8 or The Commerce Control List according to requirements in
           Federal Property Management Regulations (41 CFR Part 101-42).9 DOD oversees
           the Federal Government’s demilitarization program; the Department of Commerce


   8
     Commodities on The United States Munitions List (22 CFR Part 121) are usually defense-related articles or
   services included in the International Traffic in Arms Regulations (22 CFR Parts 120-130) published by the
   U.S. Department of State. 

   9
     Dual-use (commercial or military) items on The Commerce Control List are subject to export control by the 

   Bureau of Export Administration in the Department of Commerce. 



www.oig.dhs.gov                                        7                                               OIG-13-19
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           oversees items on The Commerce Control List. The USCG defines demilitarization
           as the act of destroying the military offensive advantages inherent in certain types
           of equipment or material to prevent the further use of this equipment and
           material for its originally intended military or lethal purpose. According to DOD,
           demilitarization prevents the release of inherent design information that could be
           used against the United States.

           The USCG participated in DOD’s Demilitarization Working Group, but it did not
           implement DOD-required processes to ensure proper lifecycle management and
           disposal of personal property requiring demilitarization. In addition, the USCG did
           not train personnel who oversaw, managed, or disposed of this type of personal
           property. Although the PPMM included these demilitarization training
           requirements, the USCG had only three personnel certified in demilitarization, all
           of whom were located at USCG Headquarters. As a result, the USCG was at risk of
           improperly disposing of property requiring demilitarization or commerce trade
           controls.

           Classified Personal Property Disposal

           CG-844 did not adequately oversee the disposal of classified personal property.
           The USCG did not centrally manage classified personal property to ensure that it
           accounted for and properly disposed of such property. Specifically, the USCG did
           not consistently track classified equipment such as computers, hard drives, and
           printers in a formal system of record, nor did it have an overarching policy for the
           disposal of classified personal property. As a result, there was a risk that classified
           information could be released to unauthorized personnel.

           CG-844 had limited interaction with the Office of Intelligence and Criminal
           Investigations and the Office of Command, Control, Communications, Computers
           and Information Technology, which provided oversight and managed classified
           personal property and its disposal for the USCG. For more than 6 months, USCG
           officials were unable to fulfill our request to identify and provide the names of
           appropriate contacts for the management and disposal of classified personal
           property. According to USCG officials, there were no component-wide
           requirements for disposal of classified property; rather, individual units
           determined disposal methods.

           DHS and the USCG require personal property used to process and store classified
           information to be accounted for in a formal system of record. However, our
           limited testing showed inconsistent use of FAM to maintain accountability for
           classified personal property. At USCG headquarters and some units, classified
           personal property was sometimes tracked in FAM as required, but in other cases,


www.oig.dhs.gov                                  8                                        OIG-13-19
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           it was tracked using local spreadsheets. Neither USCG headquarters nor unit
           officials could explain why all classified property was not included in FAM. CG-844
           officials had no insight into this issue because they did not oversee the
           management of classified personal property.

           CG-844 Organizational Structure

           The USCG did not conduct a formal organizational assessment to justify the
           current property management structure; did not identify and define property
           management requirements; and did not analyze the knowledge, skills, and abilities
           needed to perform these jobs. The USCG reported that it was collecting
           information from CG-844 staff to understand current workloads, including
           timeframes for completing tasks, major deadlines, and recurrent activities.

           CG-844 was not organized to manage personal property adequately, including its
           reutilization and disposal. Although the USCG made efforts to reorganize and
           focus on the financial aspects of property management, it did not focus on
           personal property management, including reutilization and disposal.

           CG-844’s current seven-person organization focused primarily on the financial
           aspects of personal property management. Four of six personal property
           management positions were financially focused:10

                  •   Property Accountability Division Chief
                  •   Personal Property Program Manager
                  •   Financial Analyst
                  •   Logistics Program Liaison

           Figure 1 shows the organizational structure of CG-844.




   10
     CG-844 provided position descriptions for all positions except the Logistics Program Liaison. A USCG
   official described the Logistics Program Liaison’s duties.


www.oig.dhs.gov                                        9                                              OIG-13-19
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Figure 1: CG-844 Property Management Organizational Structure





           Source: USCG.

           The two Supply Property Management Specialists shared the same position
           description, which was primarily to act as the USCG Manager for Decommissioned
           Cutters and Boats. However, a USCG official said that only one of the specialists
           worked in this capacity. The other specialist served on the DOD Demilitarization
           Working Group, managed CG-844’s intranet site, and oversaw CG-844’s year-end
           reporting. The USCG said that the procedures used by the Supply Property
           Management Specialists were not documented. The USCG relied on their
           experience and knowledge to perform these functions. Without documenting
           these procedures, the USCG risked losing the ability to perform these key
           functions if one or both of the specialists left their positions.

           Oracle Fixed Asset Module

           Personal property disposal data was not reported accurately and completely in
           FAM. CG-844 was responsible for managing FAM to support USCG personal
           property management. However, CG-844 did not ensure that the system’s data
           was accurate and complete. Thus, the USCG could not be certain that it
           appropriately accounted for and disposed of excess personal property.

           The USCG provided limited guidance on entering data into FAM, and as a result,
           data entry was not consistent. The USCG could not provide a FAM data dictionary
           for selection and use of property retirement categories. Furthermore, the PPMM
           did not provide guidance on selecting FAM retirement categories or which forms
           to use. Although USCG officials could not define or explain the appropriate use of
           “Extraordinary” as a retirement category, the category was used 2,210 times in
           FAM from FY 2008 through FY 2010. Personal property in the retirement category
           “Lost” was defined as lost, missing, or stolen. During our data analysis, we noted
           units using this category to administratively dispose of items in FAM that had


www.oig.dhs.gov                               10                                      OIG-13-19
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           actually been disposed of years earlier without proper documentation and
           remained on the units’ property reports. For example, according to the USCG
           Finance Center records, an obsolete switchboard removed in 2002 was categorized
           as “lost” and removed from FAM in 2010. Our review of FAM data also showed
           the USCG used the incorrect types of forms to record disposals. For example, a
           form to be used for real property was incorrectly used for 17,175 personal
           property disposals in our sample.

           Recommendations

           We recommend that the Assistant Commandant for Resources and Chief Financial
           Officer:


           Recommendation #1:

           Define and clarify CG-844’s authorities and responsibilities over the reutilization
           and disposal processes for the USCG at the Executive Management Council
           Internal Controls Audit Readiness Board.

           Recommendation #2:

           Clarify topic areas to prevent conflict between United States Coast Guard policies
           and procedures in future revisions of the Personal Property Management Manual
           and ensure that the manual reflects the actual processes and procedures various
           programs use to identify, screen, record, reutilize, and dispose of excess personal
           property. Future revisions should also include detailed instructions for entering
           disposal data into the Oracle Fixed Asset Module.

           Recommendation #3:

           Develop and implement a demilitarization program, in coordination with the
           Department of Defense Demilitarization Office, that includes training and
           certification for United States Coast Guard personnel who manage, oversee, or
           process personal property from acquisition to disposal.

           Recommendation #4:

           Develop and implement a process to enter and track all classified personal property
           in the Oracle Fixed Asset Module. Develop and implement standardized policies
           and procedures to ensure accountability, monitoring, and oversight of disposal of
           classified personal property components (e.g., hard drives and printer cartridges).


www.oig.dhs.gov                                 11                                       OIG-13-19
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Recommendation #5:

           Conduct a formal organizational review of the current property management
           structure to assess, identify, and define property management resource
           requirements and to analyze the knowledge, skills, and abilities needed to perform
           these jobs. Ensure that asset reutilization and disposal oversight responsibilities
           are clearly defined in relevant position descriptions.

           Management Comments and OIG Analysis

           The USCG provided comments on the draft of this report. A copy of the response
           in its entirety is included in appendix B.

           Management Comments to Recommendation #1

           Concur. The USCG agrees that CG-844’s authorities and responsibilities need to be
           reviewed and subsequently clarified. In conjunction with the assessment of the
           CG-844 organizational structure (see Recommendation #5), the USCG will redefine
           CG-844’s functional responsibilities over personal property reutilization and
           disposal processes. The results of this review will be presented to the Executive
           Management Council Internal Controls Audit Readiness Board.

           OIG Analysis

           We consider the planned actions by the USCG to be responsive to the
           recommendation. However, the recommendation will remain unresolved until we
           receive a timeline for the assessment. The recommendation will remain open until
           we receive and review the results of the assessment, including its implementation
           once approved by the Executive Management Council Internal Controls Audit
           Readiness Board.

           Management Comments to Recommendation #2

           Concur. The USCG is developing a revised PPMM. In addition, the Property
           Accountability Division (CG-844) will augment the revised PPMM with Tactics,
           Techniques, and Procedures. This guidance will further clarify procedures for
           managing personal property and document each item throughout the stages of its
           life cycle. The target audience of the Tactics, Techniques, and Procedures is
           Accountable Property Officers, Property Administrators, and Property Custodians.




www.oig.dhs.gov                               12                                      OIG-13-19
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           OIG Analysis

           We consider the planned action by the USCG to be responsive to the
           recommendation. However, the recommendation will remain unresolved until we
           receive a timeline for the revision to the PPMM and its Tactics, Techniques and
           Procedures. The recommendation will remain open until we receive and review a
           copy of the revised PPMM and its Tactics, Techniques and Procedures.

           Management Comments to Recommendation #3

           Concur. The current PPMM addresses demilitarization by requiring demilitarization
           of “property which has lethal characteristics, or is dangerous to public health and
           safety,” and utilizes the Defense Demilitarization Program Course for certification
           and training requirements. The USCG will develop new procedures to identify
           assets subject to demilitarization and to provide assurance that the act of
           demilitarization was conducted prior to disposal of these assets.

           OIG Analysis

           We consider the planned actions by the USCG to be responsive to the
           recommendation but it will remain unresolved until a timeline is provided for the
           development and implementation of the new procedures. The recommendation
           will remain open until the USCG provides evidence that it has coordinated with the
           Department of Defense Demilitarization Office to ensure that the USCG’s planned
           actions comply with all training, certification, and demilitarization requirements,
           and we receive a copy of the new procedures for review.

           Management Comments to Recommendation #4

           Concur. While the USCG recognizes that its policy requires that classified property
           shall be tracked in Oracle Fixed Assets, it acknowledges the shortcomings with unit
           compliance and will take actions to address the shortcomings.

           OIG Analysis

           We consider the planned action by the USCG to be responsive to the
           recommendation. However, the recommendation will remain open and
           unresolved until the USCG provides a specific plan of action, an implementation
           timeline, and evidence of implementation that addresses the shortcomings in unit
           compliance with the PPMM for classified personal property.




www.oig.dhs.gov                                13                                      OIG-13-19
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Comments to Recommendation #5

           Concur. A formal organizational review and assessment of the property
           management structure will be conducted to address the control environment
           necessary to provide assurance that policy and procedures are followed. This
           assessment will identify the resources needed to address the current limitations in
           carrying out property management and oversight duties, as well as determine the
           appropriate knowledge, skills, and abilities for these positions.

           OIG Analysis

           We consider the ongoing action taken by the USCG to be responsive to the
           recommendation. However, the recommendation will remain unresolved until we
           receive a timeline for the assessment. The recommendation will remain open until
           we receive and review a copy of the assessment.

           Screening and Disposal of Excess Personal Property

           The USCG sites we visited generally had inadequate internal controls to identify,
           screen, reutilize, and dispose of excess personal property. Some sites did not
           screen excess personal property for possible reutilization as required, did not
           consistently follow procedures for disposal of excess personal property, and did
           not properly support disposal actions or retain auditable documentation.
           Inconsistent screening of excess personal property may mean the property was
           not being fully reutilized.

           USCG guidance required each USCG unit to maintain an effective property
           accountability and control system that included referring usable excess personal
           property to other activities to promote its continued use and disposing of excess
           personal property. In particular, units were to screen excess property for
           reutilization, as well as monitor and communicate information on property-related
           activities. Appendix C contains an overview of the USCG’s excess personal
           property disposal process.

           From FY 2008 through FY 2010, 51 percent of our capitalized property sample and
           74 percent of the noncapitalized sample of excess personal property were either
           not disposed according to PPMM procedures or had incomplete records that
           prevented us from determining if the disposal was correct. In some cases, units
           incorrectly prepared paperwork for disposal of excess personal property. Based
           on our review of this paperwork, it is unclear whether the personal property was
           disposed of according to the PPMM.



www.oig.dhs.gov                                14                                      OIG-13-19
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Documentation supporting capitalized personal property disposal was also
           inaccurate and incomplete. Units used incorrect categories and forms to
           document disposal. For example, documentation for destruction of a boat showed
           two different hull numbers. We were not able to determine if there were two
           boats, which boat was destroyed, or whether the second boat was erroneously
           recorded as disposed of in FAM. Additionally, it took the USCG almost 6 years to
           change the boat’s status to “disposed” in FAM, and we found no evidence in the
           records that the USCG was aware of the potential issue. Further, one unit used
           the undefined category of “Extraordinary” to dispose of at least 900 noncapitalized
           personal property items that had been missing from the unit for at least 5 years.

           Disposal records for noncapitalized firearms, which were entered and tracked in a
           United States Navy system of record, were incomplete or inaccurate. Of the 316
           records of noncapitalized firearms disposals we reviewed, 264 were disposed of
           correctly through Defense Logistics Agency Disposition Services using a DD-1348­
           1A form. However, none of the 264 forms included the required PPMM
           demilitarization code. According to USCG records, the remaining 52
           noncapitalized firearms were disposed of by other acceptable methods, including
           transfers to other Federal Government agencies. The disposal of 92 percent of the
           noncapitalized firearms followed the correct procedures. However, we could not
           determine if the remaining 8 percent followed the correct procedures because of
           missing transfer documents or forms that contained errors.

           Samples of USCG capitalized and noncapitalized excess personal property and
           noncapitalized firearms disposed of between FY 2008 and FY 2010 showed
           incorrect disposal processes, inaccurate forms, or discrepancies between disposal
           records and FAM data. Table 1 shows the results of our testing.




www.oig.dhs.gov                               15                                      OIG-13-19
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Table 1: Consolidated Results of Testing of Samples of Excess Personal Property
         Disposal Data, FY 2008–FY 2010
                                                          Disposal
                                                           Process
                                         Forms            Complied          Disposal Records
                                        Correctly           With             Matched FAM
              Personal Property Tested Completed           PPMM*              Information       Testing Type
                                                                                                          11
              Capitalized                  0%                49%                   6%          Statistical
              Noncapitalized               0%                26%                  42%          Judgmental
              Noncapitalized Firearms      0%                92%                 N/A**         Statistical
              Source: USCG FAM and DHS OIG. 


              *Disposal process complied with PPMM policies and procedures and disposal documentation was 

              correct. The remaining property either did not comply with PPMM processes, or incomplete 

              records made it indeterminable whether it complied with other processes. 

              **Firearms were accounted for in a United States Navy system of record. 


              The PPMM required that excess personal property be removed from unit property
              records in FAM within 30 days of disposal. Sampled units did not always comply
              with this policy. For example, a small boat, disposed of in 2001, was not removed
              from the unit’s property records in FAM until 2010; and capitalized navigational
              equipment, which according to the unit was likely physically removed in 1987, was
              not removed from that unit’s records in FAM until 2010. The USCG Finance Center
              was to remove capitalized personal property from unit property lists and units
              were to remove noncapitalized personal property from unit property lists in FAM.
              Our review of unit and USCG Finance Center disposal records showed that many
              items might have been disposed of without proper documentation.

              Personal Property Management Training

              The USCG did not adequately train its personnel in personal property
              management, including reutilization and disposal processes. Without training, the
              USCG could not ensure that its personnel possessed the knowledge and skills to
              properly identify, screen for reutilization, and dispose of excess personal property.
              In response to performance concerns, the USCG commissioned a study to identify
              and remediate skill and knowledge gaps. The analysis identified specific training
              improvement opportunities and recommended solutions to improve the
              performance of APOs, Personal Property Administrators, and Property Custodians.
              However, USCG officials said that the Office of Financial Policy and Systems (CG-84)
              did not address the findings or implement the recommendations to improve
              training.


   11
        Please refer to appendix A for details of the sampling conducted.


www.oig.dhs.gov                                          16                                             OIG-13-19
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


           Although the PPMM did not require Commanding Officers and APOs to be trained
           in personal property management, it did state that those who manage
           Government property shall be competent and proficient in property management
           and accountability, with working knowledge of fields such as physical security,
           environmental protection, and demilitarization. In addition, APOs were to train
           Property Custodians in personal property management. However, APOs, Personal
           Property Administrators, and Property Custodians were not required to have
           experience or training before assuming their responsibilities.

           Some APOs at units we visited said that they had received on-the-job training, but
           none had received formal training in managing personal property. APOs and
           Property Custodians at these units said that they were either trained using unit-
           prepared tools and guides or were not trained at all. We interviewed personnel at
           30 sites we visited, and they expressed concerns about the need for adequate
           personal property management training.12 For example, personnel at 22 of 25
           sites noted that Property Custodians were not trained in identifying and disposing
           of excess personal property. Personnel at 21 of the 24 sites reported that an
           appropriate training program for Property Custodians did not exist. At 23 sites,
           there were no opportunities for continued training, nor was there a procedure to
           ensure that all personnel received appropriate training. Five of the 30 sites
           attempted to fill this training gap by creating their own training tools, guides, and
           presentations.

           Although the PPMM stated that APOs should be trained on FAM, USCG officials
           said that they did not require APOs to complete computer-based FAM training.
           During calendar years 2008 through 2010, only 147 USCG personnel passed the
           training module test.

           The initial training school for Storekeepers, who at some units are considered
           property management subject matter experts, did not include content on FAM,
           disposal of sensitive materials, or identification of excess personal property.13
           Storekeepers initially attended a 7-week school or completed an on-the-job
           training syllabus. The school curriculum included minimal training on reutilization
           and disposal, but it did not include training on FAM; on identifying excess personal
           property; and on disposal of hazardous, classified, demilitarized, or other sensitive
           property.


   12
      Some sites did not respond to all questions. 

   13
      Storekeepers are enlisted members of the USCG whose duties include keeping inventory; preparing 

   requisitions; handling logistical functions, including those related to USCG accounting; and preparing 

   financial reports. 




www.oig.dhs.gov                                        17                                               OIG-13-19
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation

           We recommend that the Assistant Commandant for Resources and Chief Financial
           Officer:

           Recommendation #6:

           Develop and implement a comprehensive training program, to include reutilization
           and disposal, for property managers, tailored to each level of personal property
           management responsibility. The training should include Commanding Officers,
           Accountable Property Officers, Personal Property Administrators, and Property
           Custodians and mandatory training for Oracle Fixed Asset Module users before
           granting future access.

           Management Comments and OIG Analysis

           The USCG provided comments on the draft of this report. A copy of the response
           in its entirety is included in appendix B.

           Management Comments to Recommendation #6

           Concur. The USCG recognizes that training is an essential component of a
           successful property management program. The USCG conducted a front-end
           analysis and will utilize the results to develop specific training modules for
           Commanding Officers, Accountable Property Officers, Property Administrators,
           and Property Custodians. The USCG will also reinstitute Oracle Fixed Asset Module
           training prior to granting access. Formalized training requirements will be
           promulgated in future PPMM updates.

           OIG Analysis

           We consider the planned actions by the USCG to be responsive to the
           recommendation. The recommendation will remain unresolved until the USCG
           provides an implementation timeline. The recommendation will remain open until
           the USCG provides documentation of the specific training modules as discussed
           above, provides the policy for Oracle Fixed Asset Module training prior to granting
           access, and provides evidence that formalized training requirements have been
           incorporated into the PPMM.




www.oig.dhs.gov                               18                                      OIG-13-19
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


           Other Matter: Accountability of Newly Purchased Computers 


           DHS and the PPMM defined computers as sensitive personal property requiring a
           high degree of control and accounting in a formal system of record. However, the
           USCG did not account for newly purchased computers until their delivery to end
           users. According to USCG officials, computers that were delivered from the
           vendor to the Surface Forces Logistics Center (SFLC) warehouse for dissemination
           throughout the USCG were not individually inventoried upon receipt, but
           remained on pallets. Figure 2 shows the delivery and accountability process for
           newly purchased computers as described by USCG officials.

                   Figure 2. Newly Purchased Computer Distribution

                    Surface Forces Logistics             Electronic Support Unit
                    Center (SFLC)                        (ESU)
                    •Computers received from             •Computers received from
                     vendor                               SFLC
                    •Not Entered into FAM                •Not Entered into FAM




                     Unit (End User)                     Electronic Support
                     •Computers received                 Detachment (ESD)
                      from ESD                           •Computers received from
                     •Entered into FAM                    ESU
                                                         •Not Entered into FAM


           Source: OIG analysis based on USCG interviews.

           The USCG did not complete an inventory to ensure that it had received the
           computers as ordered from the vendor. According to USCG officials, the Electronic
           Support Unit might have removed computers from pallets to add software, but did
           not enter the computers into FAM. When the computers arrived at USCG units,
           unit personnel entered them into FAM. The poor accountability and safeguarding
           during this process made new computers susceptible to theft.

           USCG officials acknowledged that not tracking computers in FAM between initial
           receipt and delivery to field units was an issue, and they planned to improve the
           process to remove this vulnerability.

           Recommendation

           We recommend that the Assistant Commandant for Resources and Chief Financial
           Officer:


www.oig.dhs.gov                                     19                                 OIG-13-19
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Recommendation #7:

           Develop and implement policies and procedures to account for newly purchased
           computers that comply with the U.S. Coast Guard’s Personal Property
           Management Manual requirement for entry of personal property into the Oracle
           Fixed Asset Module within 30 calendar days of receipt from the vendor.

           Management Comments and OIG Analysis

           The USCG provided comments on the draft of this report. A copy of the response
           in its entirety is included in appendix B.

           Management Comments to Recommendation #7

           Partially Concur. SFLC is an Inventory Control Point that manages its inventory
           within the Naval Electronics Supply Support System in accordance with the
           Financial Resource Management Manual, COMDTINST M7100.4 and the Uniform
           Supply Operations Manual, COMDTINST M4121.4.

           SFLC receipts and accounts for new computers in the same manner as all other
           wholesale inventory stocked at the Inventory Control Point. However, new
           computers are classified as a controlled item. Inventory that is classified as
           controlled is identified as such in the Naval Electronics Supply Support System,
           stored in a secure warehouse, and inventoried at least annually. However, the
           Naval Electronics Supply Support System does not have the capability to track and
           account for inventory by serialization as recommended by DHS OIG. Addition of
           this capability could result in substantial cost to the USCG.

           SFLC will continue to manage new computers inducted into the Inventory Control
           Point in accordance with current policy until Naval Electronics Supply Support
           System serialization tracking is available or changes to existing policy occur.

           OIG Analysis

           We do not consider the ongoing action taken by the USCG to be responsive to the
           recommendation. The recommendation will remain unresolved and open until the
           USCG provides documentation that it has aligned its accountability process for
           newly purchased computers with its PPMM policies for personal property.

           The USCG response says that newly purchased computers are receipted and
           accounted for at SFLC in the same manner as wholesale inventory. Inventory is


www.oig.dhs.gov                               20                                     OIG-13-19
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


            accounted for, according to the USCG response, in the Naval Electronics Supply
            Support System and cannot be tracked by serial number. However, the USCG does
            not define computers as inventory but rather as personal property.14 According to
            the USCG, computers are further classified as general purpose personal property.
            The PPMM stipulates that USCG general purpose personal property be accounted
            for in the Oracle Fixed Asset Module, which tracks property by serial number.
            Based on the USCG’s policies, newly purchased computers are not defined as
            inventory and must be tracked in the USCG’s Oracle Fixed Asset Module, not the
            Naval Electronics Supply Support System.




   14
     The USCG’s PPMM defines inventory as tangible personal property that is (1) held for sale, (2) in the
   process of production for sale, or (3) to be consumed in the production of goods for sale or in the provision
   of services for a fee. The USCG’s PPMM defines personal property as all expendable and non-expendable,
   tangible assets including vessels, boats, vehicles (including trailers), major electronics systems, stand-alone
   electronics, electronic test equipment, general purpose equipment, small arms, weapons systems, computers,
   Aids to Navigation (ATON) equipment, buoys, personal protective equipment, artwork, models, and
   artifacts.


www.oig.dhs.gov                                         21                                                OIG-13-19
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objective, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
   the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
   reports prepared as part of our oversight responsibilities to promote economy, efficiency,
   and effectiveness within the Department.

   This report provides the results of our work to determine whether the USCG had
   adequate policies, procedures, and processes to identify, reutilize, and dispose of excess
   personal property from FY 2008 through FY 2010.

   We analyzed the USCG’s personal property management structure, policies, and
   procedures that included reutilization and disposal of personal property. We evaluated
   internal control practices CG-844 established and implemented at the program level, as
   well as those established and implemented at visited USCG units. We did not seek to
   determine the USCG’s compliance with GAO Standards for Internal Control in the Federal
   Government, but rather the existence of internal controls relative to personal property
   management. To that end, using the GAO’s framework as a guide, we focused primarily
   on the internal controls CG-844 codified in the PPMM.

   We tested the accuracy, completeness, and correctness of the USCG’s personal property
   disposal process for capitalized and noncapitalized personal property and noncapitalized
   firearms from FY 2008 through FY 2010. We also analyzed documentation collected
   during our site visits. For capitalized personal property, we conducted a statistical sample
   of boats and electronics disposals from FY 2008 through FY 2010 using a 95 percent
   confidence interval and a 5 percent sampling error and sampled 100 percent of the vessels
   and aircraft disposed of during the same period. For noncapitalized firearms, we conducted
   statistical sampling of FY 2008 through FY 2010 disposals using a 95 percent confidence
   interval and a 5 percent sampling error. Samples were drawn from these populations
   using IDEA software. Owing to time limitations, we took a judgmental sample from USCG-
   wide noncapitalized personal property disposals. Sampling populations are listed in table
   2.




www.oig.dhs.gov                                22                                       OIG-13-19
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



   Table 2: Sampling Populations and Sample Sizes

   Category                                    Population     Sample Size   Type of Sample
   Capitalized Aircraft                             8             8         100%
   Capitalized Boats                               302           169        Statistical
   Capitalized Electronics                         215           138        Statistical
   Capitalized Vessels                              2              2        100%
   Noncapitalized Firearms                        1,777          316        Statistical
   Noncapitalized General Personal Property      166,148          72        Judgmental

   Source: OIG.

   We visited the following USCG units:

   •	   Aviation Logistics Center – Elizabeth City, NC
   •	   Shore Infrastructure Logistics Center – Norfolk, VA
   •	   Surface Forces Logistics Center – Baltimore, MD
   •	   Training Center Petaluma – Petaluma, CA
   •	   USCG Finance Center – Chesapeake, VA
   •	   USCG Headquarters – Washington, DC

   Additionally, we conducted multiple site visits at the following locations:

   •	   Alameda, CA
   •	   Baltimore, MD
   •	   Chesapeake, VA
   •	   Elizabeth City, NC
   •	   Portsmouth, VA
   •	   San Francisco, CA

   We assessed compliance with Federal, DHS, and USCG policies, procedures, and internal
   controls for identifying, reutilizing, and disposing of excess personal property, including—

   •	   DHS Management Directives
   •	   Defense Demilitarization Manual
   •	   Federal Management Regulation
   •	   U.S. Coast Guard Personal Property Management Manual (COMDTINST M4500.5A and
        5B)

   We conducted this performance audit between August 2011 and March 2012 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the


www.oig.dhs.gov                                 23                                    	      OIG-13-19
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              24                                     OIG-13-19
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report



                                                   """"""'"
                                                   United Su,tt$ Coasl Guard

              United States
              Coast Guard
                                                                                       7501

                                                                                       Nov -'IOU

              :~M~~~tlLCOMDT (CG-8)
                                                                               Reply to Audit Manager
                                                                               Attn of: Mark Kulwicki
                                                                                        (202) 372-3533
              To:      Anne L. Richards
                       Assistant Inspector General for Audits
                       Department of Homeland Security (DHS)

              Subj:    DHS OIG DRAFT REPORT: "IDENTIFICATION, REUTILIZATION, AND
                       DISPOSAL OF EXCESS PERSONAL PROPERTY BY THE UNITED STATES
                       COAST GUARD"

              Ref:     (a) OIG Proje<t No. 11-052-AUD-USCG, dated September 18, 2012

              I. This memorandum transmits the Coast Guard's response to the findings and recommendations
              identified in reference (a).

              2. The Coast Guard concurs with the report's recommendations.

              3. If you have any questions, my point of contact is Mr. Mark Kulwicki who can be reached at
              202-372-3533.

                                                                #

              Enclosure: (I ) USCG Response




www.oig.dhs.gov                                                25                                            OIG-13-19
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                  UNITED STATES COAST GUARD RESPONSE FOR DHS OIG DRAFT REPORT:
                  IDENTIFICATION, REUTlLlZATJON, AND DISPOSAL OF EXCESS PERSONAL
                    PROPERTY BY THE UNITED STATES COAST GUARD, (ll-OSZ-AUD-USCG)

              RECOMMENDATIONS AND USCG RESPONSES

             Recommendation #1: Define and clarify CO-844 's authorities and responsibilities over the
             reutilization and disposal processes for the USCG at the Executive Management Councillntemal
             Controls Audit Readiness Board

             USCG response: Concur. The Coast Guard agrees that a review 0[CG-844's authorities and
             responsibilities needs to be conducted and subsequently clarified. In conjunction with the
             assessment of the CG-844 organizational structure (see Recommendation #S), the Coast Guard
             will rc-define CO-844 's functional responsibilities over the reutilization and disposal procc:sses
             for personal propeny. The results of this review will be presented to the Executive Management
             Councillntemal Controls Audit Readiness Board.

             Recommendation #2: Clarify topic areas to prevent conflict between United States Coast Guard
             policies and procedures in future revisions of the Personal Property Management Manual
             (PPHM) and ensure that the manual reflects the actual processes and procedures various
             programs use to identify, screen, record. reutilize and dispose of excess for entering disposal data
             into the Oracle Fixed Asset Module

             USCG response: Concur. The Coast Guard is developing a revised PPMM . In addition, the
             Property Accountability Division (CG-844) will augment the revised PPMM with Tactics,
             Techniques. and Procedures (TTP) . This guidance will further clarify procedures for managing
             personal property and document each item throughout the stages of its life-cycle. The target
             audience of the TIP is Accountable Property Officers, Property Administrators, and Property
             Custodians.

             Recommendation #3: Develop and implement a demilitarization program. in coordination with
             the Department of Defense Demilitarization Office that includes training and certification for
             United States Coast Guard personnel who manage, oversee or process personal property from
             acquisition to disposal.

             USCG response: Concur. The current PPMM addresses demilitarization by requiring
             demilitarization of''propcrty which has lethal characteristics. or is dangerous to public health and
             safety," and utilizes the Defense Demilitarization Program Course for certification and training
             requirements. The Coast Guard will develop new procedures to identify assets subject to
             demilitarization and to provide assurance that the act of demilitarization was conducted prior to
             disposal of these types of assets.

             Recommendation #4: Develop and implement a process to enter and track all classified
             personal property in the Oracle Fixed Asset Module (FAM). Develop and implement
             standardized policies and procedures to ensure accountability, monitoring, and oversight of
             disposal of classified personal property components (e.g., hard drives and printer cartridges).




                                                                                          ENCLOSURE (I)




www.oig.dhs.gov                                              26                                                     OIG-13-19
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              USCG response: Concur. While the Coast Guard recognizes that classified property shall be
              tracked in Oracle Fixed Assets, and policy requires it, we acknowledge the shortcomings with
              unit compliance and will take action to address the shortcomings.

             Recommendation #5: Conduct a fonnal organizational review of the current property
             management structure to assess, identify, and define property management resource requirements
             and to analyze the knowledge, skills, and abilities needed to perform these jobs. Ensure that
             asset reutilization and disposal oversight responsibilities are clearly defined in relevant position
             descriptions

             USCG response: Concur. A formal organizational review of the property management structure
             will be assessed to address the control envirorunent necessary in order to provide assurance that
             policy and procedures are followed . This assessment will identify the resources needed to
             address the current limitations in carrying out property management and oversight duties, as well
             as determine the appropriate knowledge, skills, and abilities for these positions.

             Recommendation #6: Develop and implement a comprehensive training program, to include
             reutilization and disposal for property managers. tailored to each level of personal property
             management responsibility. The training should include Commanding Officers. Accountable
             Property Officers. Personal Property Administrators. and Property Custodians and mandatory
             training for Oracle Fixed Asset Module users before granting future access.

             USCG response: Concur: The Coast Guard recognizes training is an essential component of a
             successful property management program. The Coast Guard has conducted a front-end analysis
             and will utilize the results to develop specific training modules for Commanding Officers,
             Accountable Property Officers, Property Administrators, and Property Custodians. The Coast
             Guard will also re-institute Oracle Fixed Asset Module training prior to granting access.
             Formalization of the training requirements will be promulgated in future updates to the PPMM .

             Recommendation #7: Develop and imp lement policies and procedures to account for newly
             purchased computers that comply with the U.S. Coast Guard's Personal Property Management
             Manual requirement for entry of personal property into the Oracle Fixed Asset Module within 30
             calendar days of receipt from the vendor.

             USCG response: Concur in part: The Surface Forces Logistics Center (SFLC) is an Inventory
             Control Point (ICP) that manages its inventory within the Naval Electronics Supply Support
             System (NESSS) in accordance with Financial Resource Management Manual, COMDTJNST
             M7100.4 and the Uniform Supply Operations Manual, COMDTINST M4121.4.

             SFLC receipts and accounts for new computers in the same manner as all other wholesale
             inventory stocked at the lCP. However, new computers are classified as a controlled item.
             Inventory that is classified as controlled is identified in NESSS as such, and stored in a secure
             warehouse and inventoried at least annually. However. NESSS does not have the capability to
             track and account for inventory by serialization as recommended by DHS 010. Addition of this
             capability could result in substantial cost to the Coast Guard.

             SFLC will continue to manage new computers inducted into the Iep in accordance with current
             policy until NESSS serialization tracking is available or changes to existing policy occur.


                                                        Page 2 of2




www.oig.dhs.gov                                              27                                                     OIG-13-19
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix C
   Personal Property Disposal Process




           Source: USCG PPMM.





www.oig.dhs.gov                             28                     OIG-13-19
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix D
   Major Contributors to This Report
   Brooke Bebow, Director
   Lorinda Couch, Program Analyst
   Anne Mattingly, Program Analyst
   Virginia Feliciano, Auditor
   Marisa Coccaro, Program Analyst
   Jacque Bear, Program Analyst
   Katrina Bynes, Independent Referencer
   Kevin Donahue, Independent Referencer
   Kelly Herberger, Communications Analyst




www.oig.dhs.gov                              29                  OIG-13-19
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   USCG Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  30                        OIG-13-19
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
